                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                                     MEMORANDUM NO. 2012-NY-0802

September 21, 2012

MEMORANDUM FOR: Vincent Hom, Director, Community Planning and Development,
                New York, 2CD



FROM:         Edgar Moore, Regional Inspector General for Audit, New York-New Jersey, 2AGA

SUBJECT:      Corrective Action Verification, City of Newburgh, NY, Section 108 Loan
              Guarantee Program, Audit Report 2009-NY-1001


                                           INTRODUCTION

We completed a corrective action verification of the recommendations made to the U.S.
Department of Housing and Urban Development’s (HUD) Office of Community Planning and
Development (CPD) pertaining to our review of The City of Newburgh, NY’s Section 108 Loan
Guarantee program, Audit Report 2009-NY-1001, which was issued November 7, 2008. The
purpose of the corrective action verification was to determine whether the audit
recommendations included in the subject report were properly implemented and the deficiencies
cited were corrected.

Please furnish us copies of any correspondence or directives issued because of the review.


                                METHODOLOGY AND SCOPE

The corrective action verification focused on the nine recommendations included in the audit
report. To accomplish our objective, we reviewed the audit report and associated supporting
documentation, as well as the HUD manangement decisions and the supporting documentation
used by HUD to close the recommendations. In addition, we interviewed officials from the
City’s Community Development Office and HUD CPD. We conducted our limited review work
in Newburgh, NY, to follow up on the City’s implementation of the agreed-upon audit
resolutions to the recommendations. This work included a review of various correspondence and
financial files maintained by the City.

                                                     Office of Audit,
                                            New York/New Jersey Region 2
                                               26 Federal Plaza, Room 3430
                                                  New York, NY 10278
                                      Phone (212) 264-4174, Fax (212) 264-1400
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                        BACKGROUND

Finding 1 of the audit report noted that the City failed to ensure that all Section 108 Loan
Guarantee funds and related project costs pertaining to the Front Street Marina redevelopment
project were proper, necessary, and fully supported. Specifically, the City (1) failed to enforce
loan agreement provisions and adequately pursue loan collateral to satisfy the debt, (2) did not
ensure that all funding sources were supported and documented, (3) unnecessarily used
Community Development Block Grant (CDBG) funds to repay the loan and deprived its activity
from receiving program income, and (4) overpaid the developer for duplicate costs. These
problems occurred because the City failed to properly administer its Section 108 loan program
by not ensuring that all costs incurred were proper and in accordance with the Section 108
agreements. As a result, the City’s CDBG program was deprived of funds that could have been
used for other activities

Finding 2 of the audit report noted that (1) the City did not achieve the primary objective of job
creation for the industrial park project, (2) loan proceeds remained unused in a bank account for
more than 7 years, (3) possible collateral or program income for loan repayment was not
pursued, and (4) the City did not ensure that the industrial site was feasible for commercial
development and job creation. As a result, the failure of the industrial park project had and will
continue to have a large negative impact on the City’s CDBG program, as CDBG funds were
used to repay the Section 108 debt and additional CDBG funds were scheduled to retire the debt.

Recommendations from the prior audit report were as follows:

               1A. Enforce the loan provisions on the Front Street Marina within 90 days and
                   reimburse the CDBG program from non-Federal funds the $449,817 used for
                   Section 108 debt repayment.

               1B. Provide HUD with evidence that all funding sources for the Front Street
                   Marina project have been received or reduce the Section 108 and Economic
                   Development Initiative (EDI) loans proportionately and repay the funds to
                   HUD.

               1C. Take appropriate action against the developer and ensure that non-Federal
                   funds are used to repay HUD the $1,322,568 in future Section 108 program
                   loan obligations ($865,968 due for the Section 108 loan and $456,600 due for
                   the EDI loan) so that future CDBG funds can be safeguarded and put to better
                   use.

               1D. Reimburse HUD from non-Federal funds the $144,341 related to the ineligible
                   duplicate payments paid to the developer for marina-related expenses.

               1E. Implement policies and procedures to ensure that all future Section 108
                   projects are administered in accordance with all approved applications, loan
                   agreements, and program requirements.




                                                2
               2A. Reimburse the CDBG program from non-Federal funds the $752,302 in
                   unused Section 108 funds to reduce the CDBG funds already used to repay
                   part of the Section 108 loan.

               2B. Establish a plan for the Crystal Lake industrial park site within 90 days or
                   reimburse the CDBG program from non-Federal funds the $1,002,849 used to
                   repay the Section 108 loan debt ($1,755,151 less $752,302 in unused Section
                   108 funds and interest).

               2C. Pursue the loan collateral or sources of program income and use those funds to
                   repay the $1,690,177 required for future Section 108 loan repayments. This
                   would allow the City to reprogram the $1,690,177 in CDBG funds scheduled
                   to be used for future repayments of the industrial park project loan and put
                   these funds to better use for other CDBG-eligible activities.

               2D. Establish and implement policies and procedures to ensure that all future
                   Section 108 projects are administered in accordance with all approved
                   applications, loan agreements, and program requirements.


                                    RESULTS OF REVIEW

HUD and Office of Inspector General (OIG) officials agreed to resolve recommendations 1A
through 1D by instructing the City to properly use the more than $1.9 million the City recovered
from the developer from the legal settlement. In effect, these funds are program income. All of
the questioned or ineligible costs were closed by HUD based upon this settlement. During the
corrective action verification, we verified that the proceeds were properly received by City
officials and properly accounted for and that they were used for either (1) debt payments and
settlement of the outstanding Section 108 debts or (2) program income for the EDI or CDBG
program to be used in the future on eligible CDBG activities.

City officials used approximately $1.3 million of the funds to pay off Section 108 debt. There is
no Section 108 debt remaining, as the last payment was made in July 2012. City officials still
have $650,487 in settlement funds on hand, which represents program income, a return of the
EDI loan, and reimbursements of CDBG funds used on prior Section 108 debt. HUD and City
officials have agreed that the $650,487 in remaining funds needs to be reprogrammed for future
use on eligible CDBG activities.

HUD and OIG officials agreed to resolve recommendations 2A through 2C by ensuring that the
remaining Section 108 loan funds on hand were properly used or that City officials had a viable
plan for the Crystal Lake project. City officials decided not to go forward with the Crystal Lake
project but, instead, used the funds to repay the Section 108 debt. This is a positive event, as the
report recommended that HUD instruct City officials to consider using the “unused Section 108
proceeds” (more than $750,000) for the debt since the project had stalled. All of the $762,394
(which included interest earned) was used to pay the Section 108 debt.




                                                 3
HUD and OIG officials closed recommendations 1E and 2D. HUD officials ensured that
monitoring was conducted for more than 6 months to ensure compliance with Section 108
requirements. HUD ensured that the City’s Community Development Office and its comptroller
were adequately communicating and were able to devise a viable plan to use the $1.9 million and
manage Section 108 financial issues. Thus, City officials complied with this requirement. As
evidence of this compliance, no more Section 108 activity was undertaken. Instead, the more
than $752,000 in unused loan proceeds was used for Section 108 debt. Further, City officials
decided not to conduct additional Section 108 activities.


                                       CONCLUSION

No deficiencies were noted as result of the corrective action verification; the audit
recommendations were properly implemented, and the deficiencies cited in the report were
corrected. The auditee declined to provide comments and so there is no OIG evaluation of
auditee comments.



                                  RECOMMENDATIONS


Since we did not identify any deficiencies there are no recommendations.




                                               4
